Report No. DODIG-2013-130                September 13, 2013




    Army Needs to Improve Controls and Audit Trails for
       the General Fund Enterprise Business System
            Acquire-to-Retire Business Process
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
A2R                           Acquire-to-Retire
AGF                           Army General Fund
ASA(FM&C)                     Assistant Secretary of the Army (Financial Management
                               and Comptroller)
BEA                           Business Enterprise Architecture
CIP                           Construction-In-Progress
CEFMS                         Corps of Engineers Financial Management System
DASA(FO)                      Deputy Assistant Secretary of the Army (Financial
                               Operations)
DFAS                          Defense Finance and Accounting Service
GFEBS                         General Fund Enterprise Business System
GLAC                          General Ledger Account Code
IFS                           Integrated Facilities System
IMCOM                         Installation Management Command
OACSIM                        Office of the Assistant Chief of Staff for Installation
                               Management
OASA(FM&C)                    Office of the Assistant Secretary of the Army (Financial
                               Management and Comptroller)
PMO                           Program Management Office
REMIS                         Real Estate Management Information System
RPUID                         Real Property Unique Identifier
USACE                         U.S. Army Corps of Engineers
USSGL                         U.S. Government Standard General Ledger
                                   INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500




                                                                           September 13, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                  SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Needs to Improve Controls and Audit Trails for the General Fund
         Enterprise Business System Acquire-to-Retire Business Process
         (Report No. DODIG-2013-130)

We are providing this report for review and comment. The Army’s inadequate controls over
the recording of accounting transactions for the Acquire-to-Retire business process in the
General Fund Enterprise Business System contributed to more than $100 billion of journal
voucher adjustments during FY 2012.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
Comments from the Director, Operations, who responded for the Assistant Chief of Staff for
Installation Management, were responsive, and we do not require additional comments.
Comments from the Deputy Assistant Secretary of the Army (Financial Operations), who
responded for the Assistant Secretary of the Army (Financial Management and Comptroller),
were partially responsive. We request that the Assistant Secretary of the Army (Financial
Management and Comptroller) provide additional comments on Recommendations A.1
through A.3, A.5 through A.7.b, A.9, and A.10 by October 15, 2013.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to audfmr@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We are unable to accept the /Signed/
symbol in place of the actual signature. If you arrange to send classified documents
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5945 (DSN 329-5945).



                                              Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting
Report No. DODIG-2013-130 (Project No. D2012-D000FL-0160.000)                   September 13, 2013

               Results in Brief: Army Needs to Improve
               Controls and Audit Trails for the General
               Fund Enterprise Business System Acquire-
               to-Retire Business Process
                                                            audit readiness goal. Accounting personnel created
What We Did                                                 over $100 billion of adjustments because of the
We performed this audit to determine whether the            ineffective use of GFEBS in accounting for
Army had adequate controls over recording                   $160 billion of fixed assets reported on the FY 2012
accounting transactions within the Acquire-to-Retire        Army General Fund Financial Statements.
(A2R) business process through the General Fund
Enterprise Business System (GFEBS). We also                 In addition, the GFEBS Program Management
determined whether the Army had verifiable audit            Office (PMO) did not maintain a verifiable audit
trails to support these transactions.                       trail for all land tracts reported in GFEBS.
                                                            Because GFEBS PMO personnel did not follow
What We Found                                               their plan for converting land assets into GFEBS,
The Army had inadequate controls over the                   the system’s land information is unreliable; the
recording of accounting transactions for the A2R            acreage of land at four activities was overstated by
business process in GFEBS. This occurred                    247,850 acres; the Army will have to expend
because Army personnel did not: develop                     additional resources to correct GFEBS land
necessary real property functionality and fully             information; and the GFEBS land information
implement their A2R business process prior to               cannot be used to make financial decisions.
deploying GFEBS for the management of
13,427 buildings and structures; follow the data            What We Recommend
conversion strategy in converting real property             Army officials should create working groups to
data from the legacy system for Fort Lee and                implement functionality in GFEBS necessary for
Redstone Arsenal; develop or implement                      Army real property management; develop
processes in GFEBS to record $10 billion of                 standardized procedures and controls that leverage
construction costs in the general ledger;                   all GFEBS capabilities; provide job-specific
understand the financial impact of recording                training; review all real property data, including
converted and purchased fixed assets as transfers-          land, in GFEBS for accuracy; develop integrated
in; and have the ability to generate a transaction          processes for recording construction costs; and
library from GFEBS.                                         develop procedures for converting fixed assets.

As a result, the Army will continue using inefficient       Management Comments and
legacy business processes and diminish the estimated        Our Response
benefits associated with business system                    Management comments were responsive for three
modernization. Although the Army has spent                  of twelve recommendations. We request that the
$814 million on GFEBS, it did not provide Army              Assistant Secretary of the Army (Financial
decision makers with relevant and reliable financial        Management and Comptroller) provide
information for real property, and it is unable to          additional comments on Recommendations A.1
identify the cost to correct the unreliable real            through A.3, A.5 through A.7.b, A.9, and A.10.
property information. In addition, the Army is at           Please see the Recommendations Table on the
increased risk of not accomplishing the FY 2017             back of this page.
                                                        i
Report No. DODIG-2013-130 (Project No. D2012-D000FL-0160.000)    September 13, 2013

Recommendations Table

         Management                   Recommendations        No Additional Comments
                                     Requiring Comment                Required
Assistant Secretary of the Army   A.1, A.2, A.3, A.5, A.6,   A.4, A.8
(Financial Management and         A.7.a, A.7.b, A.9, A.10
Comptroller)
Assistant Chief of Staff for                                 B
Installation Management

Please provide comments by October 15, 2013.




                                            ii
Table of Contents

Introduction	                                                                1     


      Objectives                                                             1     

      Background                                                             1     

      Review of Internal Controls                                            4


Finding A. Inadequate Controls Over the GFEBS Acquire-to-Retire Process      5


      Inefficient and Ineffective Performance                                6

      Identification of Needed Real Property Functionality                   9

      Need to Convert Accurate Data                                         11 

      Data Conversion Strategy                                              12 

      General Ledger Did Not Record Construction-In-Progress                13 

      Process For Recording Construction Costs Not Integrated               14 

      Insufficient Business Process to Record In-House Construction Costs   15 

      Use of Inaccurate Accounting Methods                                  15 

      Impact of Decisions                                                   17 

      Inability to Provide a Transaction Library                            17 

      Conclusion                                                            18     

      Management Comments on the Finding and Our Response                   19 

      Recommendations, Management Comments, and Our Response                20 


Finding B. GFEBS Contained Unreliable Land Information	                     28 


      Insufficient Audit Trail                                              28     

      Summary Land Information                                              29 

      Additional Work Needed to Correct Land Information                    29 

      Recommendation, Management Comments, and Our Response                 30 


Appendixes

      A. 	Scope and Methodology                                             31 

             Use of Computer-Processed Data                                 32 

             Use of Technical Assistance                                    32 

      B. Prior Coverage 	                                                   33 


Management Comments

      Department of the Army	                                               35 

Introduction
Objectives
We determined whether the Army’s controls over recording accounting transactions
within the Acquire-to-Retire (A2R) business process1 through the General Fund
Enterprise Business System (GFEBS) were adequate. In addition, we determined
whether these transactions were supported with verifiable audit trails. We reviewed the
Army’s A2R business processes using GFEBS to record real property accounting
transactions and to manage real property accountability. We also reviewed transaction
posting logic for fixed assets. See Appendix A for Scope and Methodology and
Appendix B for Prior Audit Coverage.

Background
This review is the fourth in a series of DoD Office of Inspector General (DoD OIG)
audits addressing GFEBS and the second to address system functionality. The first audit,
DoD OIG Report No. D-2008-041, “Management of the General Fund Enterprise
Business System,” January 14, 2008, reported that the Army did not effectively plan the
acquisition of GFEBS; use an appropriate method to contract for services; or prepare a
realistic economic analysis for the GFEBS program. The report made
16 recommendations to address 3 major deficiencies in the planning and development of
GFEBS. The second audit, DoD OIG Report No. D-2011-072, “Previously Identified
Deficiencies Not Corrected in the General Fund Enterprise Business System Program,”
June 15, 2011, showed that management actions were insufficient for correcting the
GFEBS program planning, acquisition, and justification deficiencies identified in the first
report. The third audit, DoD OIG Report No. DODIG-2012-066, “General Fund
Enterprise Business System Did Not Provide Required Financial Information,” March 26,
2012, reported that GFEBS did not contain accurate and complete FY 2010 U.S.
Government Standard General Ledger (USSGL) and Standard Financial Information
Structure information as required by the Federal Financial Management Improvement
Act of 1996 and Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD,
guidance.

Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,”
October 28, 2009 (NDAA 2010), requires DoD to develop a plan to ensure that the DoD
financial statements “are validated as ready for audit by not later than September 30,
2017.” To contribute to its ability to achieve audit readiness by 2017, DoD is
modernizing its business and financial systems through the deployment of enterprise
resource planning2 systems. The Army asserted on January 7, 2013, on the existence and
completeness of 53 percent of its real property assets and plans to assert on all Army real
property assets for existence and completeness by FY 2014. According to the “Financial


1
  The A2R business process includes business events related to other end-to-end business processes. We
limited our review to business events unique to A2R and not included in the other business processes.
2
  Enterprise resource planning systems are software systems designed to support and automate key
operational processes.

                                                   1

Improvement and Audit Readiness (FIAR) Guidance,” February 2013, DoD determined
that existing assets will not be subject to the valuation assertion.

GFEBS is one of the Army’s enterprise resource planning system solutions for complying
with the NDAA 2010 requirement. The Army developed GFEBS to be a web-enabled
financial, asset, and accounting management system. GFEBS’ objectives include
improving effective and efficient use of resources, complying with statutory and
regulatory accounting requirements, standardizing financial and business processes, and
ensuring a flexible system that provides the capabilities to meet future needs. To support
cost management, the system processes financial, real property, cost, and performance
data. As of April 10, 2013, the Army has spent $814 million on the development of
GFEBS.

On July 1, 2012, the Army completed the final planned deployment of GFEBS with more
than 53,000 users at 227 locations in 71 countries. GFEBS is the general ledger for the
Army General Fund (AGF). In addition, the November 2012 DoD Financial
Improvement and Audit Readiness Plan states that GFEBS is the Army’s system of
record for real property assets. GFEBS replaced the Integrated Facilities System (IFS).3
As GFEBS replaced IFS, it took over physical and financial accountability of Army real
property inventory, which requires the ability to identify, track, account, and manage real
property. The Army’s systems of record for land and Army National Guard real property
are the Real Estate Management Information System (REMIS) and the Planning
Resource for Infrastructure Development and Evaluation system, respectively.

Fixed Assets and Real Property
Fixed assets, also known as property, plant, and equipment, are those assets that have a
recorded cost that equals or exceeds the DoD capitalization threshold4 and have a useful
life of two years or more. Fixed assets normally include items such as real property,
motor vehicles, furniture, office equipment, computers, fixtures and fittings, and plant
and machinery. The FY 2012 AGF Financial Statements reported $160 billion in General
Property, Plant, and Equipment, including $92 billion of military equipment. Real
property consists of land and improvements to land, buildings, and structures, including
improvements and additions, and utilities. Real property also includes equipment affixed
and built into the building as an integral part of the building (such as heating systems),
but not movable equipment (such as plant equipment). The FY 2012 AGF Financial
Statements reported $46 billion of buildings, structures, and facilities; $601 million of
land; and $10 billion of construction-in-progress (CIP).

Acquire-to-Retire Business Process
The Business Enterprise Architecture (BEA) defines the DoD business transformation
priorities, the business capabilities required to support those priorities, and the



3
  IFS, the Army’s real property system since 1976, was shut down on September 14, 2012.

4
  Currently, the DoD capitalization threshold is $100,000, except for real property. The DoD capitalization 

threshold for real property is $20,000.


                                                     2

combinations of enterprise systems and initiatives that enable those capabilities. The
BEA guides and constrains implementation of interoperable defense business system
solutions, such as GFEBS. The scope of the BEA is defined within the end-to-end
framework, consisting of integrated business flows that include both functions and
organizations. The BEA includes functions, processes, rules, or standards that are
required to be used in a consistent manner to support or describe the DoD business
enterprise. The BEA identifies 15 DoD end-to-end business processes that are intended
to streamline and enable standard, integrated, and optimized business processes; improve
records management; and establish process governance that promotes transparency,
collaboration, integration, and innovation across the Army. We focused this audit on the
BEA A2R business process, which encompasses all business functions necessary to
obtain, manage, and dispose of accountable and reportable property through the
property’s entire lifecycle. Specifically, we focused on the Army’s business functions for
placing an asset in service, managing an asset, and disposing of an asset. The Army’s
A2R process for real property is depicted in Figure 1.
              Figure 1. Army’s A2R Business Process for Real Property
        Master           Acquire          Placement         Manage          Disposal of 
       Planning           Asset          into Service        Asset             Asset


Army Acquire-to-Retire Roles and Responsibilities
Several organizations contribute to the planning, acquiring, placing in service, managing,
and disposing of fixed assets and real property in the Army’s A2R business process.

Office of the Assistant Secretary of the Army (Financial Management
and Comptroller)
The Office of the Assistant Secretary of the Army (Financial Management and
Comptroller) (OASA[FM&C]) is responsible for programs and systems pertaining to
Army finance and accounting operations. Part of OASA(FM&C)’s mission is to provide
timely, accurate, and reliable financial information to enable leaders and managers to
incorporate cost considerations into their decision making. OASA(FM&C) oversees the
functional and process components for GFEBS.

U.S. Army Office of the Assistant Chief of Staff for Installation
Management
The U.S. Army Office of the Assistant Chief of Staff for Installation Management
(OACSIM) provides policy formulation, enterprise integration, program analysis and
integration, requirements and resource determination, and best practices for services,
programs, and installation support. As a result, OACSIM is responsible for improving
the management of installations, facilities and services, and establishing policy for Army
real property management. The Assistant Chief of Staff for Installation Management also
serves as the Commander of the U.S. Army Installation Management Command.




                                             3

U.S. Army Installation Management Command
The U.S. Army Installation Management Command (IMCOM) provides oversight of all
aspects of installation management, such as construction and public works and
installation funding. In October 2002, the Army placed installation management under
the Installation Management Agency, an OACSIM field-operating agency. In October
2006, IMCOM assumed the responsibilities of the Installation Management Agency and
the Army’s Community and Family Support Center and Environmental Center.

U.S. Army Corps of Engineers
The U.S. Army Corps of Engineers (USACE), Army’s construction agent, provides
engineering, construction, real estate, stability operations, and environmental
management products and services for the Army. In performing real estate services for
the Army, USACE is responsible for acquiring, managing, and disposing of real estate.
USACE utilizes REMIS to maintain accountability information on the Army’s land.

U.S. Army Program Executive Office Enterprise Information Systems
The U.S. Army Program Executive Office Enterprise Information Systems provides
infrastructure and information management systems to the Army and develops, acquires,
and deploys information technology systems. GFEBS is a program of the Program
Executive Office Enterprise Information Systems. The GFEBS Project Management
Office (PMO) is responsible for the life cycle management of the GFEBS program and
has overall responsibility for planning, programming, budgeting, and execution of funds
through the entire GFEBS lifecycle.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
and audit trail weaknesses over Army’s use of GFEBS in its A2R business process.
Army personnel did not: develop necessary real property functionality and fully implement
their A2R business process prior to deploying GFEBS; follow the data conversion strategy in
converting real property data from the legacy system for Fort Lee, Virginia, and Redstone
Arsenal, Alabama; develop an integrated process in GFEBS to record costs incurred by
USACE in the construction of a real property asset; understand the financial impact of
recording converted and purchased fixed assets as transfers-in; and have the ability to
generate a transaction library from GFEBS. In addition, GFEBS PMO personnel did not
follow their plan for converting land assets into GFEBS. We will provide a copy of the
report to the senior official responsible for internal controls in the Department of the
Army.




                                             4

Finding A. Inadequate Controls Over the
GFEBS Acquire-to-Retire Process
The Army’s controls over the recording of accounting transactions for the A2R business
process in GFEBS were inadequate. Specifically, the Army did not:

    	 ensure real property personnel could efficiently and effectively perform their day-
       to-day responsibilities related to the management of 13,427 buildings and
       structures5 using GFEBS. This occurred because the OASA(FM&C), OACSIM,
       and GFEBS PMO personnel fielded the system before developing necessary real
       property functionality and without fully implementing their reengineered A2R
       business processes.

    	 ensure the accuracy of real property data prior to and during the conversion
       process from IFS to GFEBS for Fort Lee and Redstone Arsenal. This occurred
       because the GFEBS PMO personnel did not follow the data conversion strategy to
       preserve the integrity and auditability of GFEBS.

    	 use GFEBS to record the $10 billion of CIP costs6 reported in the FY 2012 AGF
       Financial Statements. This occurred because OASA(FM&C) personnel did not
       develop an integrated process in GFEBS to record costs incurred by USACE in
       the construction of a real property asset. In addition, OASA(FM&C) and GFEBS
       PMO personnel did not implement a business process to record in-house CIP into
       the general ledger.

    	 use accurate accounting methods for recording real property and other fixed assets
       in GFEBS. This occurred because OASA(FM&C) and GFEBS PMO personnel
       did not understand the financial impact of the decision to record converted and
       purchased fixed assets in general ledger account code (GLAC) 5720 (Financing
       Sources Transferred in Without Reimbursement).

In addition, GFEBS could not produce an automated transaction library showing the
general ledger account postings for fixed asset transactions. OASA(FM&C) and GFEBS
PMO personnel stated this occurred because GFEBS did not have the capability to
generate a transaction library.

As a result, the Army will continue using inefficient legacy business processes and
diminish the estimated benefits associated with transforming business operations through
business system modernization. Although the Army has spent $814 million on GFEBS,
it did not meet the program objectives to provide Army decision makers with relevant


5
  These buildings and structures include active permanent, relocatable, semi-permanent, and temporary
facilities as of August 24, 2012, at the five sampled locations. See Appendix A for sampled locations.
6
  CIP costs are the costs of real property assets while under construction, which include the costs of project
design and actual construction such as labor, materials, and overhead costs.

                                                      5

and reliable financial information and standardized business processes for real property.
In addition, the Army is unable to identify the cost it will incur to correct unreliable real
property information in GFEBS. Consequently, the Army is at increased risk of not
accomplishing the goal of full financial statement audit readiness by FY 2017. For
example, Defense Finance and Accounting Service (DFAS) made over $100 billion of
adjustments because of the ineffective use of GFEBS in accounting for the $160 billion
of fixed assets reported on the FY 2012 AGF Financial Statements. DFAS adjusted the
statements by $82 billion to remove an overstatement because Army inappropriately used
GLAC 5720 to record fixed assets in GFEBS and also adjusted the statements by
$19 billion to add fixed assets that bypassed GFEBS, the Army’s general ledger.

Inefficient and Ineffective Performance
The Army did not ensure real property personnel could efficiently and effectively
perform their day-to-day responsibilities related to the management of 13,427 building
and structures using GFEBS. Specifically:
    	 OASA(FM&C) and GFEBS PMO personnel did not develop GFEBS with 

       sufficient reporting functionality to manage real property, 

    	 OASA(FM&C) and GFEBS PMO personnel did not integrate the GFEBS
       modules7 responsible for real property with the modules responsible for the
       funding and purchasing of real property assets, and
    	 OACSIM and GFEBS PMO personnel did not develop adequate functional
       training for Army personnel involved in the A2R business process.

Real Property Reporting
OASA(FM&C) and the GFEBS PMO personnel did not develop GFEBS with sufficient
reporting functionality to manage real property. Specifically, real property personnel at
Fort Hood, Texas; Fort Leavenworth, Kansas; Fort Lee; Redstone Arsenal; and the U.S.
Army Reserves stated they did not have the ability
                                                          GFEBS PMO personnel were
to easily obtain information from GFEBS. In
                                                              not able to produce an
addition, GFEBS PMO personnel were not able to
                                                           Army-wide universe of real
produce an Army-wide universe of real property
                                                          property assets from GFEBS.
assets from GFEBS. Army Regulation 405-45,
“Real Property Inventory Management,” November 2004, sets forth the requirements,
authority, policy, and responsibility for the accountability and management of all real
property and interest therein. This guidance states that the real property inventory is a
basic source of information on status, cost, area, capacity, condition, use, and
management of real property at the installation and major Army command level. This
regulation is the basis for supplying real property information to offices of Congressional
committees; DoD; Headquarters, Department of the Army; General Services


7
 GFEBS uses the following eight Systems, Applications, and Products in Data Processing modules to
support Army business process areas: Funds Management, Financials, Controlling, Spending Chain, Fixed
Assets, Real Estate, Materials Management, and Business Intelligence.

                                                  6

Administration; and other interested Government agencies. Until GFEBS can readily
provide reports containing all the necessary real property data, installation personnel and
decision makers will not have an accurate source for status, cost, area, capacity,
condition, use, and management of real property information.

Installation Real Property Inventory
Army real property staff stated that they could not generate real property reports out of
GFEBS containing the information needed to perform their day-to-day management of
real property, including the periodic inspections of real property for which they were
responsible. For example, Fort Hood personnel stated that GFEBS could not generate a
complete listing of the 7,851 facilities on their installation that included all the necessary
data elements. According to Army Regulation 405-45, real property officers are
accountable for the completeness and accuracy of all real property records. As
demonstrated in the examples below, GFEBS did not provide sufficient functionality to
manage real property:

   	 The Fort Hood Real Property Accountable Officer stated that, prior to GFEBS,
      the real property inventory report allowed him to maintain visibility over assets
      under his responsibility and ensure accuracy of the information. However, with
      GFEBS, he was unable to extract the necessary data elements and identify any
      changes from one month to the next.

   	 Redstone Arsenal personnel stated that they were unable to extract information
      necessary to perform their required annual certifications or plan for asset
      inspections, limiting their ability to manage their workload.

   	 U.S. Army Reserve Installation Management Directorate personnel stated that
      they were not able to obtain and report information on their leased and relocatable
      assets. In addition, they stated that, in response to a request, they could not use
      GFEBS to provide information on their presence and economic impact in each
      state. U.S. Army Reserve Installation Management Directorate personnel also
      stated that, since early 2012, they have submitted multiple requests to the GFEBS
      PMO and OACSIM for modifications to the GFEBS real property inventory
      report and, as of May 24, 2013, have not received a response.

Due to the difficulty in obtaining GFEBS real property reports, installations hired
                                            contractor support to assist with retrieving data.
     Due to the difficulty in obtaining     Specifically, Fort Leavenworth personnel
      GFEBS real property reports,          awarded a contract for almost $37,000 to
      installations hired contractor        provide training and support over the GFEBS
     support to assist with retrieving      reporting processes and project systems
                   data.                    function. Fort Leavenworth personnel stated
that the contractor created a database that compiled data from multiple GFEBS reports to
provide management the information needed to make property management decisions.



                                              7

Army-Wide Real Property Inventory
GFEBS PMO personnel were not able to provide an Army-wide universe of real property
assets. Army Regulation 405-45 required OASCIM to maintain a central inventory of
Army real property and analyze the inventory for accuracy. Initially, GFEBS PMO
personnel stated that the only method to provide an Army-wide universe of real property
would be to generate a report for each of the more than 5,000 GFEBS business entities
and combine the reports to create the universe. GFEBS PMO personnel stated that they
did not have the resources to expend on such an effort. Later they informed us that they
could provide a data extract rather than a report. On November 30, 2012, we requested
the Army-wide real property data extract from the GFEBS PMO. As of March 2013, the
GFEBS PMO has not provided the Army-wide real property data extract. GFEBS PMO
personnel also stated that the system has the capability to generate an Army-wide listing
of real property assets. However, they indicated they have not had a need to generate
such a listing and therefore, are not certain if the system will actually run the report for
such a large volume of assets. Army Regulation 405-45 also requires that the real
property inventory be updated continuously and reported semiannually. The ability to
generate an Army-wide listing of real property assets from GFEBS would provide the
Army more visibility over its complete real property inventory than does generating a
report for each of the more than 5,000 business entities in GFEBS and combine them.

Integration Did Not Occur Between System Modules
OASA(FM&C) and GFEBS PMO personnel did not integrate the GFEBS modules
responsible for real property with the modules responsible for the funding and purchasing
of real property assets. Specifically, relevant
information entered into GFEBS during the              Relevant information entered into
purchase request and contracting processes was            GFEBS during the purchase
not transferred to the real property asset records.   request and contracting processes
The Office of Management and Budget                      was not transferred to the real
Circular A-123, “Management’s Responsibility                 property asset records.
for Internal Controls,” December 21, 2004, required agencies to operate systems with
appropriate internal controls to ensure the accuracy of data, completeness and consistency
of transaction processing, and reliable financial reporting. In addition, the Office of
Federal Financial Management, “Core Financial System Requirements,” January 2006,
stated that a financial system must provide for “one-time” data entry and reuse of
transaction data to support downstream integration, interfacing, or business and reporting
requirements. The lack of integration between the components increases the risk for
duplication of duties, and inconsistent and unreliable data.

Real property personnel at the installations manually re-entered data that already existed
in GFEBS. For example, personnel at the installations manually entered the funding
organization and appropriation information into GFEBS instead of this being derived
from the purchase request or funding authorization within GFEBS. Since GFEBS
already contained this information as part of the development and funding of the asset,
the information should have been automatically populated by the system. To prevent
inconsistencies, financial data should enter the system only once and automatically
update the other parts of the system as necessary.

                                             8

Army Personnel Received Inadequate Functional Training
OACSIM and GFEBS PMO personnel did not develop adequate functional training for
Army personnel involved in the A2R business process. The Office of Management and
Budget Circular A-127, “Financial Management Systems,” January 9, 2009, required that
adequate training and appropriate user support be provided to the users of the core
financial systems. In addition, training must enable the users of the systems to
understand, operate, and maintain the system. Proper training is critical to ensure
financial management systems achieve their objectives.

Real property personnel at Fort Hood, Fort Leavenworth, Fort Lee, Redstone Arsenal,
and U.S. Army Reserves stated that the GFEBS training they received was inadequate for
them to perform their assigned tasks. Real property personnel stated that they received
                                                   training on how to log on to GFEBS and
   Real property personnel stated that they
                                                   perform basic navigation in the system,
      received training on how to log on to
                                                   but they did not receive functional
   GFEBS and perform basic navigation in
                                                   training on how to perform their specific
       the system, but they did not receive
                                                   job. In addition, Redstone Arsenal
     functional training on how to perform
                                                   personnel stated that when they asked the
                their specific job.
                                                   instructors how to use GFEBS to perform
their real property responsibilities, they were told that it depended on their installation
business process. GFEBS PMO personnel stated that OASA(FM&C) personnel directed
the development of “Day-In-The-Life” training teams because the formal training
provided by the system integrator did not teach job specific tasks. However, Redstone
Arsenal personnel stated that the “Day-In-The-Life” training they received did not
adequately address how to perform day-to-day real property functions. Because the
functional training over real property processes was inadequate, each of the installations
visited developed their own non-standardized processes for performing their day-to-day
responsibilities.

Identification of Needed Real Property Functionality
Real property personnel could not efficiently and effectively perform their day-to-day
responsibilities using GFEBS because the OASA(FM&C), OACSIM, and GFEBS PMO
personnel fielded the system before developing necessary real property functionality and
without fully implementing their reengineered A2R business process.

Insufficient Real Property Reporting Functionality
OASA(FM&C), OACSIM, and GFEBS PMO personnel fielded the system before
developing necessary real property functionality. In the FY 2007 Department of the
Army Financial Statements, the Assistant Secretary of the Army (Financial Management
and Comptroller) (ASA[FM&C]) stated that GFEBS had shown that it could capture all
real property inventory information and its associated financial data. However, the
GFEBS PMO acknowledged that they became aware of a reporting capability gap in
FY 2011, 2 years after fielding GFEBS to the first installations. In an effort to alleviate
the reporting capability gap, GFEBS PMO personnel stated that they were developing
“23 reports” for the real property community and “fielding dates for these reports will be

                                             9

identified as soon as they are through their test and validation phase.” However,
OASA(FM&C) and GFEBS PMO personnel should have developed, tested, and validated
the reports required for real property personnel to perform their day-to-day jobs prior to
fielding GFEBS to over 200 locations.

In addition, OACSIM personnel held a capabilities review concerning GFEBS real
property functionality on September 26, 2012, around three months after the July 1, 2012,
date on which the Army reported that GFEBS was fully deployed. The group included
personnel from OACSIM, IMCOM, GFEBS PMO, and various real property personnel
from Army installations. The review was intended to determine whether GFEBS
contained all the data elements, business procedures, and reporting capabilities needed by
the Army real property community. During the one-day session, the group partially
addressed the required data elements and postponed completion of the remaining data
elements and the business procedures and reporting capabilities until a later date. For
example, during the September 2012 meeting, the group did not review the disposal value
data element, the real property inventory report, and the process of performing a transfer
of a relocatable asset from one site to another. OACSIM personnel stated they held
another capabilities review on May 7, 2013, and plan to hold an additional meeting, at a
date yet to be determined, to accomplish the objective of the initial review.

Until the installation real property personnel have report capabilities containing the
necessary data elements, the Army will continue spending money on GFEBS support
contracts to obtain assistance in getting the reports they need to perform their real
property responsibilities and meet various reporting requirements. The ASA(FM&C)
should develop a working group to identify all functionality not in GFEBS necessary for
complete Army real property management, including the capability to generate an Army-
wide real property universe, and develop and implement the identified functionality into
GFEBS. In addition, the ASA(FM&C) should use this working group to perform user
acceptance testing of the 23 real property reports prior to implementing them.

System Fielded Without Implementing Reengineered Business
Processes
OASA(FM&C), OACSIM, and GFEBS PMO personnel fielded GFEBS without
implementing their reengineered A2R business process. NDAA 2010, section 1072
directed the chief management officer for each defense business system modernization to
determine whether appropriate reengineering efforts had been completed, and, if not, to
develop a plan to complete the reengineering efforts. GFEBS system design
documentation8 described a process that integrated real property information across
several components within the system. For example, the design documentation indicated
that costs associated with a project would periodically be transferred from the module
used for project management to an asset under construction or a completed asset. This
would create an audit trail by linking the costs for the asset to the completed asset.


8
  Army’s business process design documentation, dated May 2009, prepared by the GFEBS system
integrator and Army personnel.

                                                10

However, at the installations we contacted, no costs had been transferred to assets under
construction or to completed assets. Furthermore, Fort Hood personnel stated that they
had not transferred costs from projects to any assets since they converted to GFEBS
almost 2 years ago because they had not been provided any guidance on how to do so.
On November 29, 2012, GFEBS PMO personnel provided an informal draft procedure to
document the settlement process and as of March 2013, they had not provided a final
version of this document.

OASA(FM&C), OACSIM, and GFEBS PMO personnel did not reengineer the A2R
business process to create standardized procedures and controls for inputting real
property data into GFEBS, increasing the risk for duplication of duties, inconsistent and
                                               unreliable data, and that inefficient legacy
     The real property internal control
                                               business processes would be recreated in the
      policies and checklists issued by
                                               new system. For example, Redstone Arsenal
   OACSIM have not been updated since
                                               personnel stated they were told during
    August 2001 and therefore, did not
                                               training that their process had not changed,
       incorporate the use of GFEBS.
                                               just the system into which they entered the
data. In addition, the real property internal control policies and checklists issued by
OACSIM have not been updated since August 2001 and therefore, did not incorporate the
use of GFEBS. As a result, the Army spent $814 million without achieving the benefits
of modernizing its system. The ASA(FM&C) should develop a working group to fully
implement its reengineered A2R business process by developing and implementing
standardized procedures and controls for using GFEBS and provide job-specific training
to personnel involved in the A2R business process ensuring that similar transactions are
recorded consistently.

Need to Convert Accurate Data
The GFEBS PMO did not ensure the accuracy of real property data prior to and during
the conversion process from IFS to GFEBS for Fort Lee and Redstone Arsenal.
Specifically, GFEBS PMO personnel completed the conversion process prior to the
cleansing of the data and did not maintain the reliability of the data during the conversion
process. GFEBS documentation on the conversion process states that once data was
loaded into GFEBS, it must be validated to ensure it was accurate. The GFEBS PMO
was responsible for the oversight of the data cleansing efforts, while the installations
were responsible for completing the cleansing of the data. The data cleansing efforts
were to be finished before the final conversion process. As a best practice, errors existing
in the legacy system should not be perpetuated in the new system because it is generally
easier to perform data cleansing prior to deployment of the new system than after.

Data Cleansing
Fort Lee and Redstone Arsenal personnel stated their sites’ data was converted to GFEBS
prior to completion of their clean-up efforts. Personnel indicated they were informed the
data conversion process would consist of three extracts of their data from IFS, which is
consistent with GFEBS documentation describing the data conversion process. The field
sites were responsible for performing a quality review of their data to validate the number
of records and the integrity of the data in IFS prior to conversion to GFEBS. However,

                                            11

Fort Lee and Redstone Arsenal personnel stated their data was only extracted twice.
Both locations reported expending time and resources to clean-up IFS data in anticipation
of the third data extract. Because the third extract did not occur, Fort Lee and Redstone
Arsenal personnel were not able to fully cleanse their IFS data prior to conversion and
had to spend additional time and resources to clean-up the same data after it was
converted to GFEBS.

Installation Personnel Cannot Rely on Accuracy of Real Property
Data
Redstone Arsenal personnel reported that they could not rely on the real property data
within GFEBS. They identified space assignment errors within their GFEBS data. For
example, personnel made changes to square footage assignments between the first and
second extracts of data. Instead of updating the original assignments during the second
data extract, GFEBS added the square footage assignments from the first and second
extracts. Redstone Arsenal personnel stated they have a plan to correct the data but it
will take time and resources.

In addition, according to GFEBS PMO personnel, some validation controls were relaxed
during data conversion due to gaps in IFS data. They indicated the controls were
reinstituted after the conversion to GFEBS.
                                                    According to GFEBS PMO
As a best practice, bypassing a system’s
                                                personnel, some validation controls
data edit and validation controls during the
                                                were relaxed during data conversion
conversion process may result in data
                                                      due to gaps in IFS data.
integrity deficiencies and increase the risk
of future problems. GFEBS PMO personnel have not been able to provide
documentation supporting what controls were relaxed during the conversion process.
OACSIM reported the installations were not able to correct errors after the controls were
reinstituted.

Data Conversion Strategy
The GFEBS PMO did not ensure the accuracy of real property data because GFEBS
PMO personnel did not follow the data conversion strategy to preserve the integrity and
auditability of GFEBS. The GFEBS Data Conversion Plan implemented the detailed
steps for the data conversion in the GFEBS Data Guide. The guide states that the data
cleansing effort should have been completed prior to the final extract of their data. In
addition, according to best practices once conversion has been completed, it is necessary
to confirm that converted data is functioning as designed. When asked if there was
enough time to review data prior to conversion, IMCOM personnel stated that GFEBS
was on a deadline to complete the wave deployment on-time. IMCOM personnel also
stated that it was possible the field sites may not have understood what they were
supposed to do as GFEBS was so different, it could be confusing.

OACSIM and GFEBS PMO personnel stated they are currently reconciling errors
resulting from the conversion to GFEBS. U.S. Army Reserves has hired contractors to
assist their personnel with the input and correction of erroneous data in GFEBS for their
assets. The Army Contracting Command modified an Army Support Contract to include
                                           12

$5 million for these data cleansing efforts. According to GFEBS PMO personnel, the
GFEBS program does not routinely track and report manual data cleansing and data
quality improvement costs arising from conversion or other data upload issues and a
requirement to do so would require manual cost collection. To ensure the reliability of
the data, the ASA(FM&C) needs to develop a working group to perform a review of all
real property data within GFEBS to ensure it is correct. In addition, this group should
track the costs of this review and other data cleansing efforts to identify the full cost of
the GFEBS implementation or as part of the Army’s audit readiness efforts.

General Ledger Did Not Record Construction-In-
Progress
The Army did not use GFEBS to record the $10 billion of CIP costs reported in the
FY 2012 AGF Financial Statements. Specifically, USACE provided CIP costs directly to
the DFAS for inclusion in the AGF financial statements and the GFEBS transaction
register did not contain any in-house CIP costs. DoD Financial Management Regulation,
Volume 4, Chapter 6, “Property, Plant, and Equipment,” June 2009, stated that
GLAC 1720 (Construction-in-Progress) should be created when either of the following
events occurs:

       	 project design and fund authorizations are received for construction projects
          performed by an agent, or
       	 work order and funding authorizations are received for an in-house minor 

          construction.9

The Regulation also stated that all costs for a construction project should be accumulated
in this CIP account and tracked by construction project to ensure visibility, traceability,
and accountability. Office of Federal Financial Management, “Core Financial System
Requirements,” January 2006, also stated that all transactions recording financial events
must post to the general ledger regardless of the origin of the transaction. The Army
created GFEBS to have a single source for financial and related non-financial data and
for consolidated financial reporting on the AGF. GFEBS, as the AGF’s general ledger,
should record any financial transaction related to AGF financial reporting even those that
originate in other systems such as the Corps of Engineers Financial Management System
(CEFMS). Furthermore, because GFEBS is the Army’s accountable system of record for
real property, CIP costs should be traceable back to the individual projects contained in
the system.

USACE personnel provided CIP costs to DFAS for inclusion in the FY 2012 AGF
financial statements. Because these CIP costs were provided by USACE in response to a
data call and directly input to the FY 2012 AGF Financial Statements using a journal
voucher, this business process to record CIP completely bypassed GFEBS, the AGF’s
general ledger system. GFEBS planning documents indicated that for construction
projects completed by USACE, CEFMS would provide the actual CIP data to the Army


9
    Minor construction consists of project costs that do not exceed $750,000.

                                                      13

financial statements and send planned CIP costs to GFEBS through a system interface.
As of September 2013, the GFEBS PMO stated that there are no plans for GFEBS to
interface with CEFMS. Therefore, CIP costs from real property assets constructed by
USACE were not recorded in the Army’s general ledger.

In addition, the Army did not record any FY 2012 in-house CIP costs in GFEBS under
GLAC 1720. According to OASA(FM&C) personnel, for in-house construction projects
over $20,000, once the project requirements were identified, a CIP indicator should have
been selected within GFEBS to create an asset under construction project. They also
indicated that this would capture the expenditures and GFEBS would record monthly
accumulated costs to CIP. As described in the following example, this process did not
occur. Fort Hood personnel entered a General Purpose Administration building into
GFEBS that was placed in service on April 9, 2012. However, the $511,995 of
construction costs for the building in Figure 2 was never recorded in the CIP account in
GFEBS for FY 2012 or on the FY 2012 AGF Financial Statements as CIP. Furthermore,
because no CIP transactions were processed through GFEBS for FY 2012, the Army is
not using the CIP account in GFEBS to record construction costs.

                 Figure 2. General Purpose Administration Building




               Source: Fort Hood Real Estate Personnel

Process For Recording Construction Costs Not
Integrated
The Army did not record CIP costs from USACE in GFEBS because OASA(FM&C)
personnel did not comply with their March 2008 agreement to develop an integrated
process in GFEBS to record costs incurred by USACE in the construction of a real
property asset. DoD OIG Report No. D-2008-072, “Controls Over Army Real Property
Financial Reporting,” March 28, 2008, reported that the Army did not accurately or
efficiently transfer CIP costs between accounting and property management systems
resulting in the inability to ensure accuracy and completeness of the acquisition costs of
its real property assets. In the report, the DoD OIG recommended that the Army develop
an integrated process within GFEBS to receive construction costs directly from any
construction agent’s accounting system and to record in-house costs incurred in the
construction of a capital asset to the corresponding project’s CIP account. In response to

                                               14

these recommendations, OASA(FM&C) personnel stated that the process for recording
CIP would be automated by FY 2011 as part of the transformation to GFEBS; however,
the GFEBS PMO indicated that there are currently no plans for GFEBS to interface with
CEFMS. Although required to record transactions in the general ledger, the Army still
has not used GFEBS to record FY 2013 CIP transactions. The ASA(FM&C) should
develop a working group to create an integrated process to record Army’s construction
costs from CEFMS in GFEBS. Because the Army did not implement efficiencies for
receiving construction costs from CEFMS to record CIP in GFEBS, DFAS personnel
                                             prepared a journal voucher to account for
   Because the Army did not implement        completed CIP projects transferred to the
   efficiencies for receiving construction   Army in the FY 2012 AGF Financial
    costs from CEFMS to record CIP in        Statements. The journal voucher adjusted
   GFEBS, DFAS personnel prepared a          GLAC 1730 (Buildings, Improvements, and
       journal voucher to account for        Renovations) by $5 billion to include
      completed CIP projects. . .in the      completed projects. The FY 2012 AGF
    FY 2012 AGF Financial Statements.        Financial Statements reported $46 billion in
Buildings, Structures, and Facilities. Therefore, this journal voucher accounted for
11 percent of the Army’s buildings and structures reported in the FY 2012 AGF Financial
Statements.

Insufficient Business Process to Record In-House
Construction Costs
The Army also did not record in-house CIP costs in GFEBS because OASA(FM&C) and
GFEBS PMO personnel did not implement a business process to record in-house CIP into
the general ledger. Although OASA(FM&C) and GFEBS PMO personnel indicated the
functionality to record in-house CIP existed in GFEBS, it is not currently being used.
GFEBS training documentation stated that personnel can indicate when an asset is under
construction. However, assets were not recorded in GFEBS until completed, so this
indicator was not used. Therefore, the Army has spent $814 million on a system that did
not record costs for in-house CIP. The ASA(FM&C) should develop a working group to
create an integrated process for recording in-house costs incurred in the construction of a
real property asset to the corresponding project’s CIP account.

Use of Inaccurate Accounting Methods
The Army did not use accurate accounting methods for recording real property and other
fixed assets in GFEBS. Specifically, OASA(FM&C) and GFEBS PMO personnel
inappropriately used GLAC 5720 (Financing Sources Transferred in Without
Reimbursement) to:
      move all fixed asset data from the legacy systems to GFEBS, and
      record newly acquired AGF fixed assets in GFEBS.

According to the U.S. Department of the Treasury, agencies can only use GLAC 5720 for
transfers between Federal entities. However, OASA(FM&C) personnel stated that they
are using GLAC 5720 to record all fixed assets in GFEBS regardless of the acquisition
method. The FY 2012 GFEBS trial balance reported $133 billion in GLAC 5720.

                                            15

Recording the Purchase/Transfer of Fixed Assets
OASA(FM&C) and GFEBS PMO personnel used GLAC 5720 to move all fixed asset
data from legacy systems to GFEBS, creating accounting transactions in GFEBS when no
business event actually occurred. For example, the Army converted a building from IFS
to GFEBS on October 1, 2011, using the transaction depicted in Table 1.

                                 Table 1. Conversion Example
  Account
  Number                  Account Description                Debit             Credit
 1730.0100       Building, Improvements, & Renovations    $591,690,065
 1739.0100       Accumulated Depreciation for
                 Buildings, Improvements &
                 Renovations                                                  $1,232,688
 5720.0100       Financing Sources Transfer In without
                 Reimbursement                                             $590,457,378
Note: Debit and credit discrepancy is due to rounding

As the Army would have recorded a transaction in the legacy accounting system when
this asset was originally acquired, they should not have recorded another transaction for
this asset in GFEBS. In addition, there was no offsetting transaction recorded to
GLAC 5730 (Financing Sources Transferred Out Without Reimbursement) in the legacy
accounting systems. By recording this transaction in GFEBS, the Army overstated the
balance in GLAC 5720 by $590.5 million for this asset.

Furthermore, OASA(FM&C) and GFEBS PMO personnel used GLAC 5720 to record
newly acquired AGF fixed assets in GFEBS. For example, the Army recorded the
acquisition of an infantry fighting vehicle in GFEBS on February 4, 2012, using the
transaction depicted in Table 2.

                                 Table 2. Acquisition Example
  Account
  Number                Account Description                    Debit          Credit
 1750.0200       Equipment - Military Equipment            $4,409,064
 5720.0100       Financing Sources Transfer In without
                 Reimbursement                                             $4,409,064

As the infantry fighting vehicle was manufactured by a defense contractor, there was no
Federal entity to transfer this asset out, and, consequently, this transaction overstated
GLAC 5720 by $4.4 million. The transaction to record a fixed asset should document the
method used to acquire the asset. For example, to correctly record the infantry fighting
vehicle in Table 2, the Army could have increased the military equipment asset account
and decreased cash or accounts payable depending on the payment method.



                                                   16

Impact of Decisions
The OASA(FM&C) and GFEBS PMO inappropriately used GLAC 5720 to record fixed
assets in GFEBS because they did not understand the financial impact of the decision to
record converted and purchased fixed assets in GLAC 5720. OASA(FM&C) personnel
stated that they now realize that recording converted and purchased assets as transfers in
may not have been the best decision. In addition, they indicated that they plan to hold
workshops to further review the A2R business process and its effects on the financial
statements. While the FY 2012 GFEBS trial balance reported $133 billion in
GLAC 5720, DFAS personnel prepared an unsupported journal voucher to remove an
$82 billion overstatement in GLAC 5720 from the FY 2012 AGF Financial Statements.
To correct the overstatement in GLAC 5720, the ASA(FM&C) reclassified the
$82 billion to GLAC 7190 (Other Gains), which created an overstatement for this
account. The final balance for GLAC 7190 was $102 billion, which means that
80 percent of the balance consisted of the overstatement caused by this reclassification.
Therefore, the Army has spent $814 million on a system that did not properly account for
the purchase of fixed assets and created material misstatements in the financial
statements. The ASA(FM&C) should develop a working group to create procedures to
ensure that fixed asset conversions in GFEBS, or other Army systems, in the future do
not overstate any general ledger account balances.

Since OASA(FM&C) treated the acquisition of all fixed assets as transfers in, GFEBS did
not capture the amounts of its current year acquisitions of fixed assets. According to the
GFEBS PMO, their organization did not incorporate the purchase of fixed assets into the
GFEBS solution. Although, GLAC 8802 (Purchases of Property, Plant, and Equipment)
should be used to track current year purchases of fixed assets, the FY 2012 GFEBS trial
balance did not have a balance for this account. As GFEBS did not record any amounts
in GLAC 8802, DFAS personnel prepared a $14 billion journal voucher to estimate the
purchases of fixed assets for FY 2012. However, OASA(FM&C) personnel stated that
this estimate related solely to the acquisition of military equipment. The $14 billion
journal voucher amount was equivalent to the amount reported on the FY 2012 AGF
Financial Statements for the Resources that Finance the Acquisition of Assets (Note 21).
Therefore, because the journal voucher did not include amounts for any other property,
plant, and equipment, other than military equipment, the FY 2012 AGF Financial
Statements were understated for the current year acquisition of fixed assets. The
ASA(FM&C) should develop a working group to create and implement procedures for
recording the acquisition of fixed assets in accordance with USSGL guidance.

Inability to Provide a Transaction Library
GFEBS could not produce an automated transaction library showing the general ledger
account postings for fixed asset transactions. Office of Federal Financial Management,
“Core Financial System Requirements,” January 2006, stated that core financial systems
must provide automated functionality to define the general ledger account postings used
in a standard transaction and define standard transactions that include proprietary,
budgetary, and memorandum accounts. OASA(FM&C) and GFEBS PMO personnel
stated that they could not provide an automated transaction library because GFEBS did

                                            17

not have the capability to generate a transaction library. The GFEBS PMO provided a
manually created transaction
library to demonstrate how              Without an automated transaction library, the
GFEBS posted accounting                 Army  is at an increased risk for not being audit
transactions. OASA(FM&C) and            ready. . .and Army financial managers cannot
GFEBS PMO personnel included             validate the general ledger account postings
transactions for the purchase of                  for fixed asset transactions.
property and equipment in the manual transaction library; however, GFEBS PMO
personnel stated that these transactions were not used as part of the GFEBS solution.
Therefore, the manual transaction library did not accurately reflect the way the GFEBS
PMO configured the system to post accounting transactions. In addition, an automated
transaction library would decrease the risk that it does not represent the actual way
accounting transactions are recorded in the system. Without an automated transaction
library, the Army is at an increased risk for not being audit ready, as auditors and Army
financial managers cannot validate the general ledger account postings for fixed asset
transactions. The ASA(FM&C) should develop a working group to create an automated
process for demonstrating the general ledger account postings for each business event in
the GFEBS transaction library.

Conclusion
The Army did not have adequate controls over the recording of accounting transactions
for the A2R business process in GFEBS. Although the Army spent $814 million on
GFEBS, the Army did not:

   	 ensure real property personnel could efficiently and effectively perform their day-
      to-day responsibilities related to the management of 13,427 buildings and
      structures using GFEBS,

   	 ensure the accuracy of real property data prior to and during the conversion
      process from IFS to GFEBS for Fort Lee and Redstone Arsenal,

   	 use GFEBS to record the $10 billion of CIP costs reported on the FY 2012 AGF
      Financial Statements, and

   	 use accurate accounting methods for recording real property and other fixed assets
      in GFEBS.

In addition, GFEBS could not produce an automated transaction library. As a result,
unless the issues identified are corrected, the Army will:

   	 continue using inefficient legacy business processes and diminish the estimated
      benefits associated with transforming business operations through business
      system modernization,




                                            18

   	 not meet GFEBS program objectives to provide Army decision makers with
      relevant and reliable financial information and standardized business processes
      for real property, and

   	 increase the risk of not accomplishing its goal of full financial statement audit
      readiness by FY 2017.

For example, DFAS made over $100 billion of adjustments because of the ineffective use
of GFEBS in accounting for the $160 billion of fixed assets reported on the FY 2012
AGF Financial Statements. DFAS adjusted the statements by $82 billion to remove an
overstatement because Army inappropriately used GLAC 5720 to record fixed assets in
GFEBS and also adjusted the statements by $19 billion to add fixed assets that bypassed
GFEBS, the Army’s general ledger. In addition, the $82 billion adjustment created an
overstatement in GLAC 7190 (Other Gains), resulting in a material misstatement on the
financial statements.

Management Comments on the Finding and Our
Response
Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) (DASA[FO]) stated
that the recommendations generally confirmed deficiencies previously identified by the
Army in real property processes and associated financial transactions. He indicated the
Army shared its concerns when the audit was announced that the A2R functions of
GFEBS were not audit ready, it was working audit readiness activities supporting the
Statement of Budgetary Resources, and it was evaluating internal audit results and
business process improvements. In addition, the DASA(FO) stated that internal audit
assessments for existence and completeness were ongoing and included the use of
independent public accountants. He indicated that by taking these actions, the Army
plans to have the Statement of Budgetary Resources and existence and completeness for
real property audit ready by 2015. For the full text of the DASA(FO)’s comments, see
the Management Comments section of the report.

The Director, Operations, OACSIM, stated that the Army’s continued implementation of
real property accountability and financial completeness processes in GFEBS will ensure a
greater probability of the Army receiving an unqualified opinion on the Army’s existence
and completeness audit.

Our Response
On October 15, 2012, the Under Secretary of the Army declared that GFEBS achieved
full deployment on July 1, 2012. He stated this determination was based on the
successful completion of system development, operational testing and evaluation, and
fielding to all approved sites in the GFEBS deployment plan. However, OACSIM
personnel waited until September 26, 2012, almost three months after the Army’s stated
full deployment date for GFEBS, before they began a review intended to determine

                                            19

whether GFEBS contained all the data elements, business procedures, and reporting
capabilities needed by the Army real property community. OASA(FM&C) and the
GFEBS PMO should have developed the A2R functionality within GFEBS before fully
deploying the system.

Successful implementation of GFEBS is critical for the Army to meet its goals of
improving the timeliness and reliability of financial information and obtaining a clean
audit opinion. To accomplish this, GFEBS must have the capability to process all current
AGF transactions as early in development and implementation as possible. We
previously recommended10 that the Army stop deployment of GFEBS and resolve issues
regarding the completeness and posting of USSGL information within the system before
moving forward with any further deployment. However, the Army disagreed and
continued with the deployment of the system. With more than 53,000 users at
227 locations in 71 countries using GFEBS, correcting identified deficiencies will require
extended time and additional funds. In addition, the DASA(FO) stated that internal audit
assessments for existence and completeness were ongoing; however, existence and
completeness are only two of the five broad categories of management representations
embodied in financial statement components. For the Army to achieve an unqualified
audit opinion on the AGF financial statements, it must also address the remaining
categories of management representations, including the valuation of assets by ensuring
the proper recording of real property transactions in the GFEBS general ledger.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) develop a working group, including the Assistant
Chief of Staff for Installation Management; the Chief, U.S. Army Corps of
Engineers; and the General Fund Enterprise Business System Program Manager to:

      1. Identify all Acquire-to-Retire functionality not in the General Fund
Enterprise Business System necessary for complete Army real property
management.

Army Comments
The DASA(FO), responding for the ASA(FM&C), agreed. He stated that the Army
recognized the importance of fully understanding the A2R real property processes and
their connections to GFEBS for complete real property management. The DASA(FO)
indicated the Army has undertaken an effort to define full end-to-end real property
management processes to include an assessment of A2R functionality not in GFEBS and
the impact on proper financial recognition and accountability.




10
  Report No. DODIG-2012-066, “General Fund Enterprise Business System Did Not Provide Required
Information,” March 26, 2012.

                                               20

Although not required to comment, the Director, Operations, OACSIM, stated that he
agrees that ASA(FM&C) should create and manage working groups to ensure the
sustainable real property business processes exist within GFEBS. He also agreed that
GFEBS can leverage all its capabilities as an ERP system, integrating internal and
external management of information across the entire organization as evidenced in
Recommendations A.1 through A.10.

Our Response
Comments from the DASA(FO) were partially responsive. He did not address for this, or
for the remaining recommendations in this finding, the establishment of a working group
and the working group’s effort to define full end-to-end real property management
processes. It is important that all stakeholders in the A2R business process, including
OACSIM, USACE, and GFEBS PMO, be involved in the effort to identify A2R
functionality necessary for complete Army real property management. We request that
the ASA(FM&C) provide comments to the final report that address the establishment of a
working group and milestones for the effort to define full end-to-end real property
management processes, including assessing A2R functionality not in GFEBS and the
impact on proper financial recognition and accountability.

      2. Develop and implement the identified functionality into the General Fund
Enterprise Business System, including the capability to generate an Army-wide real
property universe.

Army Comments
The DASA(FO) partially agreed. He stated that GFEBS supports Army real property
management and maintenance once real property assets have been placed in service and
that the execution of military construction and management activities are not directly
supported within GFEBS. In addition, the DASA(FO) indicated that land record
accountability is managed outside of GFEBS. He also stated the USACE is responsible
for execution and management of military construction funding as well as land and lease
activity. The DASA(FO) indicated that the current end-to-end process analysis effort is
intended to reinforce the requirement for strong and reliable interaction points with
GFEBS.

Although not required to comment, the Director, Operations, OACSIM, stated that efforts
are currently underway to incorporate real property data from other systems of record
(REMIS, the Rental Facility Management Information System, and the Planning
Resources for Infrastructure Development and Evaluation) to ensure GFEBS provides
visibility on the entire Army real property universe.

Our Response
The DASA(FO) comments were not responsive. Personnel from the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, provided the funding
authorization for the Army military construction appropriation to ASA(FM&C), not
USACE. Therefore, the OASA(FM&C) is responsible for the execution and
management of this funding. In addition, Office of Federal Financial Management,

                                          21

“Core Financial System Requirements,” January 2006, stated that all transactions
recording financial events must post to the general ledger regardless of the origin of the
transaction. GFEBS, as the AGF’s general ledger, should record any financial
transaction related to AGF financial reporting, even those that originate in other systems
and CIP costs should be traceable back to the individual projects contained in GFEBS,
the Army’s real property system of record. Until this occurs, GFEBS will not be the
single source for financial and related non-financial data and for consolidated AGF
financial reporting as it was intended. In addition, the DASA(FO) did not address how
the Army will implement the capability into GFEBS to generate an Army-wide real
property universe, which will be critical for future financial statement opinion audits. We
request that the ASA(FM&C) reconsider her position and provide comments to the final
report addressing how the GFEBS PMO will develop and implement the identified
functionality into GFEBS, including the capability to generate an Army-wide real
property universe.

      3. Perform user acceptance testing of the 23 real property reports under
development prior to implementing the reports.

Army Comments
The DASA(FO) disagreed. He stated that the 23 products are job aids to support users in
understanding GFEBS functionality and associated business processes and user
acceptance testing would not be practical. The DASA(FO) indicated adjustments are
routinely made to job aids to better support the needs of users. He also stated that
GFEBS personnel recognize the correlation between aligning end-to-end real property
management processes with reporting capabilities. The DASA(FO) also indicated that
the current comprehensive end-to-end real property business process analysis and
reengineering efforts will ensure that the GFEBS real property capabilities can support
the Army real property community.

Although not required to comment, the Director, Operations, OACSIM, stated that a
collaborative effort would be made to identify the required standard reports and ensure
they are readily accessible by GFEBS users.

Our Response
The DASA(FO)’s comments were not responsive. Whether the products are job aids or
reports, OASA(FM&C) and GFEBS PMO personnel should involve the end users in
developing and testing to ensure the products meet the needs of the real property
community. By not doing so, OASA(FM&C) and GFEBS PMO personnel risk creating
job aids that do not correct the reporting capability gap identified by the Army in
FY 2011. The DASA(FO) did not provide details concerning how the Army will ensure
the job aids meet the end-users needs, including the lack of reporting capabilities for the
real property community to perform their day-to-day responsibilities. We request that the
ASA(FM&C) reconsider her position and provide comments on the final report
addressing how the GFEBS PMO will ensure the job aids meet the needs of the real
property community and that the real property community has the necessary reporting
capabilities.

                                            22

       4. Implement the Army’s reengineered Acquire-to-Retire business process
by developing standardized procedures and controls that leverage all the
capabilities the General Fund Enterprise Business System provides.

Army Comments
The DASA(FO) agreed. He stated that the Army is working to leverage the capabilities
that GFEBS provides with the current end-to-end real property business process analysis
and reengineering efforts. The DASA(FO) added that, although these efforts started
before the audit, the DoD IG’s assessment has helped the Army focus on several real
property functions, process scenarios, and systems interaction points. He also indicated
that the current analysis includes a full review of controls over risks associated with real
property existence and completeness audit readiness.

Although not required to comment, the Director, Operations, OACSIM, stated that
OASA(FM&C) and the GFEBS PMO will lead a collaborative effort with OACSIM,
USACE, U.S. Army Reserve, and Army National Guard personnel to integrate the
reengineered A2R business processes and controls across the components and ensure the
full capabilities of GFEBS are realized. He indicated that this would ensure that relevant
financial data entered into GFEBS during real property asset data entry, such as purchase
request and contracting processes, are transferred automatically to the real property asset
records.

Our Response
The DASA(FO)’s comments were responsive, and no additional comments are required.

      5. Provide job-specific training to Army real property personnel and other
personnel involved in the Acquire-to-Retire business process.

Army Comments
The DASA(FO) agreed. He stated that the efforts of GFEBS personnel over several
years have resulted in a series of “Day-In-The-Life” training resources and job aids. The
DASA(FO) added that this is an important effort that will need to be supported and given
continued attention in the future. He stated that the OASA(FM&C), OACSIM, and
GFEBS PMO will develop and deploy additional training aids in the future as needs are
identified.

Although not required to comment, the Director, Operations, OACSIM, stated that
OACSIM conducted Real Property Management and Space Utilization training through
the USACE Proponent Sponsored Engineer Corps Training program until FY 2013. He
indicated that OACSIM is in the process of developing several courses of action for
leadership consideration that would provide a comprehensive real property management
and systems training program. The Director stated the program would combine the
“Day-In-The-Life” scenarios with statutory and regulatory guidance that explains how
the Army manages real property. He stated that the program would be collaboratively
developed by OACSIM, the real property functional experts, and OASA(FM&C) and the

                                             23

GFEBS PMO, the financial and system experts, to ensure the best training product will be
available.

Our Response
The DASA(FO)’s comments were partially responsive. Redstone Arsenal personnel
stated that the “Day-In-The-Life” training they received did not adequately address how
to perform day-to-day real property functions. Real property personnel need functional
training on how to perform their specific job. Without adequate functional training on
real property processes, installation personnel may develop their own non-standardized
processes for performing their day-to-day responsibilities. We request that the
ASA(FM&C) provide additional comments explaining how the “Day-In-The-Life”
training aids have been updated to address the performance of day-to-day real property
functions.

        6. Perform a review of all real property data in the General Fund Enterprise
Business System to ensure that the General Fund Enterprise Business System
contains the correct data going forward and track the costs associated with this
effort and other data cleansing efforts so they can be calculated as part of the cost of
the General Fund Enterprise Business System implementation or as part of the
Army’s audit readiness efforts.

Army Comments
The DASA(FO) partially agreed. He stated that the Army has begun reviewing and
reconverting real property data in GFEBS. However, the DASA(FO) disagreed with
tracking the costs associated with this effort and other data cleansing efforts since there
are multiple organizations involved in each step of the real property data review and
cleansing process.

Our Response
The DASA(FO)’s comments were partially responsive. The task of financial system data
cleansing and conversion can be a significant part of the financial system implementation
in terms of workload, complexity, risk, and cost. The costs for data cleansing and
conversion are a part of the overall investment cost for GFEBS. Therefore, the costs to
perform a review of all real property data in GFEBS to ensure that the system contains
the correct data going forward should be tracked, regardless of the number of
organizations involved. If the OASA(FM&C) does not track these costs, Congress and
DoD senior management will not receive accurate information on the full cost for
GFEBS implementation or for the Army’s efforts to become audit ready. We request that
the ASA(FM&C) reconsider her position and provide comments to the final report
addressing how the Army will track the costs with this effort and other data cleansing
efforts so they can be included as part of the cost of the GFEBS implementation or as part
of the Army’s audit readiness efforts.

      7. Develop an integrated process within the General Fund Enterprise
Business System to:


                                             24

            a. Record construction costs from the Corps of Engineers Financial
       Management System in the General Fund Enterprise Business System, the
       Army’s general ledger.

Army Comments
The DASA(FO) disagreed. He stated that USACE is responsible for execution and
management of military construction funding. The DASA(FO) indicated that
construction projects and the associated recording of CIP are managed within CEFMS,
which directly feeds the Army’s financial statements through the Defense Departmental
Reporting System.

Although not required to comment, the Director, Operations, OACSIM, stated that
OACSIM will work with the key A2R business process stakeholders, other than USACE,
to ensure that CIP costs transfer accurately to GFEBS from their systems of record. He
later clarified that OACSIM will collaborate with the Office of the Secretary of Defense
on the CIP business processes for construction projects managed through the Naval
Facilities Engineering Command or other construction agencies tracking CIP costs for
projects on Army installations. The Director indicated this may include construction by
DoD Agencies and Army National Guard projects on Army installations not specifically
managed by USACE.

Our Response
The DASA(FO)’s comments were not responsive. Personnel from the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, provided the
funding authorization for the Army military construction appropriation to ASA(FM&C).
Therefore, the OASA(FM&C) is responsible for the execution and management of this
funding, not USACE. The Army created GFEBS to have a single source for financial
and related non-financial data. Office of Federal Financial Management, “Core Financial
System Requirements,” January 2006, stated that all transactions recording financial
events must post to the general ledger regardless of the origin of the transaction. GFEBS,
as the AGF’s general ledger, should record any financial transaction related to AGF
financial reporting, even those that originate in CEFMS. Until this occurs, GFEBS will
not be the single source for consolidated AGF financial reporting as it was intended. We
request that the ASA(FM&C) reconsider her position and provide comments on the final
report addressing how OASA(FM&C) will work with OACSIM, USACE, and the
GFEBS PMO to ensure GFEBS records construction costs from CEFMS.

             b. Record in-house costs incurred in the construction of a real
       property asset to the corresponding project’s construction-in-progress
       account.

Army Comments
The DASA(FO) agreed. He stated that CIP incremental costs should be recorded and
settled to the asset in GFEBS upon placement in service for the narrow scope of real
property construction undertaken by installation activities.


                                           25

Our Response
The DASA(FO)’s comments were partially responsive. He agreed that CIP incremental
costs should be recorded and settled to the asset in GFEBS. However, the DASA(FO)
did not state what actions the Army would take to ensure it developed the integrated
process within GFEBS. We request that the ASA(FM&C) provide comments on the final
report addressing planned or taken corrective actions and the planned completion date.

       8. Develop procedures to ensure that fixed asset conversions in the General
Fund Enterprise Business System, or other Army systems, in the future do not
overstate any general ledger account balances.

Army Comments
The DASA(FO) agreed. He stated that the business rules for real property data migration
and asset establishment were developed in 2010 and were updated in 2013 as part of the
current end-to-end real property business process analysis and reengineering effort. The
DASA(FO) indicated that the GFEBS Functional personnel are responsible for
maintaining the asset conversion business rules documentation. He added that the
revised business rules ensure that there is a complete and accurate universe of assets that
comprise the baseline for the real property sub-ledger and supports the trial balance
general ledger accounts in detail. The DASA(FO) stated that by doing so, GFEBS can
have adequate assurance that the applicable general ledger account balances are not
overstated as a result of conversion efforts.

Our Response
The DASA(FO)’s comments were responsive, and no additional comments are required.

        9. Develop and implement procedures for recording the acquisition of fixed
assets in accordance with the U.S. Government Standard General Ledger.

Army Comments
The DASA(FO) agreed. He stated that GFEBS is already configured to recognize the
varied methods of acquisition of real property assets that results in correct general ledger
posting recognition in accordance with the USSGL. The DASA(FO) also stated that the
current end-to-end real property business process analysis and reengineering effort will
assist the Army with developing associated training materials and job aids to help users in
correctly applying the existing capability within GFEBS.

Our Response
The DASA(FO)’s comments were partially responsive. The Army did not use accurate
accounting methods for recording real property and other fixed assets in GFEBS. While
the system may contain the appropriate general ledger account postings, procedures were
not in place to ensure the Army recorded the acquisition of fixed assets in accordance
with the USSGL. As previously mentioned, the Army incorrectly recorded the
acquisition of an infantry fighting vehicle as a transfer-in, resulting in a $4.4 million
overstatement in GLAC 5720. Users were following an existing job aid that incorrectly

                                            26

directed them to record all newly acquired assets as transfers-in, regardless of the
acquisition method. We request that the ASA(FM&C) provide comments on the final
report that address the recommended working group and how the Army will ensure it
records the acquisition of fixed assets in accordance with the USSGL. In addition, the
comments to the final report should indicate the organizations involved in and milestones
for the end-to-end real property business process analysis and reengineering efforts.

      10. Develop an automated functionality for demonstrating the general ledger
account postings for each business event in the General Fund Enterprise Business
System.

Army Comments
The DASA(FO) disagreed. He stated that, in accordance with its financial management
requirement mandates, GFEBS has automated functionality to define general ledger
account postings used in standard transactions and has defined standard transactions that
include proprietary, budgetary, and memorandum accounts within the system. In
addition, the DASA(FO) stated that there are no requirements to develop and maintain
automated transaction library extracts or reports.

Our Response
The DASA(FO)’s comments were not responsive. He stated that GFEBS has an
automated functionality to define general ledger account postings used in standard
transactions; however, OASA(FM&C) and GFEBS PMO personnel could not use
GFEBS to demonstrate the general ledger account postings for the A2R business events.
The manually created transaction library did not accurately reflect the GFEBS general
ledger account postings. Without an automated method within GFEBS that demonstrates
the general ledger account postings, Army financial managers and auditors cannot verify
that GFEBS complies with USSGL and DoD Standard Financial Information Structure
requirements. We request that the ASA(FM&C) reconsider her position and provide
comments to the final report describing how GFEBS can demonstrate the general ledger
account postings for each A2R business event.




                                           27

Finding B. GFEBS Contained Unreliable
Land Information
The GFEBS PMO did not maintain a verifiable audit trail for land tracts reported in
GFEBS. Specifically, 33 of the 154 land tracts included in the sample were reported at
the summary level in GFEBS and contained land tract numbers that did not exist in
REMIS, the Army’s accountable property system of record for land. This occurred
because GFEBS PMO personnel did not follow their plan for converting land assets into
GFEBS and incorporated summary level land information from IFS as well as land tract
level information from REMIS. As a result, GFEBS overstated the total acreage for
4 activities by at least 247,850 acres and the land information reported in GFEBS is
unreliable. The Army will have to expend additional funds and resources to reconcile
and correct the land information in GFEBS. In addition, DoD and Army personnel
cannot use the information in GFEBS to make financial decisions regarding the use of
resources due to the inaccuracies in the land information.

Insufficient Audit Trail
The Army did not maintain a verifiable audit trail for all of the land tracts we reviewed.
Specifically, 33 of 154 land tract numbers from Fort Hood, Fort Leavenworth,11 Fort Lee,
and Redstone Arsenal were reported at the summary level in GFEBS and did not contain
land tract numbers that existed in REMIS. DFAS 7900.4-M, “Financial Management
Systems Requirements Manual,” stated that all transactions must be traceable to
individual source transactions, creating an audit trail. While audit trails are critical to
providing support for transactions and account balances, they are also essential for
verification by auditors and system evaluators, and necessary for the day-to-day operation
of systems. To improve the accessibility and consistency of real property data across the
DoD, the Office of the Deputy Under Secretary of Defense for Installations and
Environment created real property unique identifiers (RPUIDs). DoD
Instruction 4165.14, “Real Property Inventory and Forecasting,” March 31, 2006,
required that all DoD real property systems use the RPUID. Therefore, USACE should
be able to use the RPUID to find land records in REMIS.

We provided USACE personnel with the RPUID, Land Tract Identification, Address,
Acquisition Basic Cost, and Acquisition date
                                                    Using the information provided
from GFEBS for all 154 sampled items. Using
                                                   from GFEBS, USACE personnel
the information provided from GFEBS,
                                                    were unable to locate 33 of the
USACE personnel were unable to locate 33 of
                                                        land assets in REMIS.
the land assets in REMIS. Specifically, 

USACE personnel stated that they could not locate the RPUIDS or the land tracts 

numbers in the REMIS database. 





11
     Fort Leavenworth included sample items from Active Army and the U.S. Army Reserve Command.

                                                  28

Summary Land Information
An audit trail did not exist between GFEBS and REMIS for many land assets because
GFEBS PMO personnel did not follow their plan for converting land assets into GFEBS.
According to GFEBS design documentation,12 the Army should have converted land
assets from REMIS at the land tract level into GFEBS. However, OACSIM personnel
stated that during the conversion process, GFEBS PMO personnel also converted
summary level land information from IFS into GFEBS. The real property conversion file
from IFS into GFEBS should have excluded land records. OACSIM personnel could not
determine why GFEBS PMO personnel converted land information from both systems.

Additional Work Needed to Correct Land Information
As a result, GFEBS contained at least 247,850 acres more than REMIS and the land
information reported in GFEBS is unreliable. The Army will have to expend additional
funds and resources to reconcile and correct the information contained within the system.
In addition, DoD and Army personnel cannot use the information in GFEBS to make
financial decisions regarding the use of resources due to the inaccuracies in the land
information. Table 3 illustrates the variances we identified between the GFEBS and
REMIS records.

                Table 3. Variances between GFEBS and REMIS records
                         Tracts of Land                  Acres of Land
  Location       GFEBS REMIS           Variance   GFEBS     REMIS      Variance
Fort Hood         1,162      1,323      (161)    427,659   214,694     212,965
Fort
Leavenworth              6           5              1            6,048         5,629              419
Fort Lee                41         131           (90)            5,907         5,808               99
Redstone
Arsenal               313          337          (24)           72,595         38,228        34,367
    Total           1,522        1,796         (274)          512,209        264,359       247,850

The variances do not identify the full scope of the inaccuracies. For example, the
41 tracts of land in GFEBS for Fort Lee are not in REMIS. In order to ensure the
information is correct within GFEBS, all 41 records will have to be replaced with the
detailed information from REMIS. As a result of the variances, GFEBS overstated the
total acreage for these 4 activities by at least 247,850 acres. Furthermore, OACSIM
personnel are working with USACE to perform a review of the accuracy of Army’s land
information in REMIS and stated they plan to dispose of the summary land records in
GFEBS once they complete the review. The Assistant Chief of Staff for Installation
Management should form a working group to complete a full review of the land



12
  Army’s functional design documentation dated March 2009, prepared by the Property, Plant, and
Equipment – Equipment and Assets Team.

                                                  29

information reported in GFEBS and ensure the correct information is contained in the
system.

Recommendation, Management Comments, and Our
Response
B. We recommend that the Assistant Chief of Staff for Installation Management
develop a working group, consisting of the Chief, U.S. Army Corps of Engineers and
the General Fund Enterprise Business System Program Manager to perform a
100 percent review of land assets to ensure General Fund Enterprise Business
System land information is correct and consistent with land data in the Real Estate
Management Information System.

Army Comments
The Director, Operations, OACSIM, responding for the Assistant Chief of Staff for
Installation Management, agreed. He stated that the OACSIM will establish and manage
a Land Reconciliation Working Group with GFEBS PMO, USACE, U. S. Army Reserve,
and Army National Guard personnel to ensure the land tract data in REMIS and the
Rental Facilities Management Information System, the Army’s source systems for land,
is correlated with GFEBS data and that future land acquisitions or transactions are
traceable back to the individual source systems transactions. He indicated that OACSIM
has unfunded requirements to USACE to update and reconcile land tract data with
REMIS and the Rental Facilities Management Information System and the project, if
funded, should be substantially complete by the end of FY 2014. He stated that
OACSIM will leverage this working group and the Army Military Land Tract project
data to potentially make this land data synchronize with the source systems in 2014. In
addition, he indicated that efforts are currently underway to ensure GFEBS reflects the
land parcel data within REMIS and the Rental Facilities Management Information
System.

Our Response
The Director, Operations, OACSIM, comments were responsive, and no additional
comments are required.




                                          30

Appendix A. Scope and Methodology
We conducted this performance audit from June 2012 through May 2013 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We contacted personnel from the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD; Army Office of Business Transformation;
Office of the Deputy Chief Management Officer; OASA(FM&C); OACSIM; Program
Executive Office Enterprise Information Systems; GFEBS PMO; DFAS; Army Materiel
Command; USACE; Army Mission Installation Contracting Command; IMCOM; and the
U.S. Army Reserves to discuss their roles and responsibilities regarding the A2R business
process. The Army’s A2R business process includes business events for the master
planning and acquiring of an asset. As these business events were not unique to the A2R
business process and related to other end-to-end processes, we did not include them in
our review. Therefore, we reviewed A2R business events related to the placing of an
asset in service, management of an asset, and disposal of an asset.

We non-statistically selected five locations based on the length of time the locations had
used GFEBS. These five locations were Fort Hood, Fort Lee, Fort Leavenworth,
Leavenworth U.S. Army Reserve Center, and Redstone Arsenal. We met with personnel
from Department of Public Works, Resource Management, and Contracting to observe
and discuss their duties as they related to the A2R business process and gathered
supporting documentation to assess the audit trail of real property assets, excluding land.
We used statistical sampling and other analytical procedures to assess the audit trail of
land assets from GFEBS to the supporting documentation obtained from the respective
USACE district offices. We selected the sample of land assets by using stratified sample
design as shown in the following table.

                             Table A. Land Sample Design

          Location                  Universe Size                   Sample Size
   Fort Hood                           1,162                            64
   Fort Leavenworth                        6                             6
   Leavenworth U.S.
   Army Reserve Center                       1                            1
   Fort Lee                                 46                           27
   Redstone Arsenal                        313                           56
            Total                        1,528                          154




                                            31

In addition, we attempted to obtain an automated GFEBS transaction library to determine
the accuracy of the posting logic for the fixed assets reported in GFEBS. We reviewed
fixed asset transactions to determine whether they complied with the USSGL transaction
library. We selected a non-statistical sample of transactions for fixed assets that were
placed in service in FY 2012 and recorded in GLAC 5720 as transfers-in.

We obtained a universe of Army real property and land assets for the five selected
locations from GFEBS for statistical sampling. Due to the excessive amount of time to
obtain the needed information within GFEBS and the significance of the other issues
already identified during the audit, we did not complete our review of the real property
asset samples. We could not readily identify transactions related to each real property
asset in GFEBS and GFEBS PMO personnel were unable to demonstrate that GFEBS
had this capability. In addition, we did not project the results of the review of the land
sample items because the summary information included in the GFEBS land universe
made the data unreliable.

Use of Computer-Processed Data
To perform this audit, we used data obtained from GFEBS. We used land asset
information as of August 2012 and FY 2012 transactions related to the A2R process from
GFEBS. We determined the reliability of the data by comparing the GFEBS land
information to the REMIS reports, comparing general ledger account totals with the
FY 2012 GFEBS trial balance to determine consistency, and reviewing FY 2012 AGF
journal vouchers from the Defense Departmental Reporting System-Audited Financial
Statements to determine the completeness of GFEBS A2R data. We also discussed data
integrity with financial management and system design experts, agency officials, and
officials at organizations involved with using GFEBS. The data reliability issues we
identified are discussed in the findings. We believe the computer-processed data we used
were sufficient to support the findings in this report.

Use of Technical Assistance
The Quantitative Methods Division provided technical assistance throughout the sample
selection and evaluation process. The Quantitative Methods Division provided statistical
samples of real property and land assets reported in GFEBS.




                                             32

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD OIG, and
U.S. Army Audit Agency (AAA) have issued 16 reports discussing GFEBS functionality
or end-to-end business processes. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil.

GAO
GAO Report No. GAO-12-685, “DoD Business Systems Modernization: Governance
Mechanisms for Implementing Management Controls Need to Be Improved,” June 1,
2012

GAO Report No. GAO-12-134, “DoD Financial Management: Implementation
Weaknesses in Army and Air Force Business Systems Could Jeopardize DoD’s
Auditability Goals,” February 28, 2012

GAO Report No. GAO-11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

DoD IG
DoD IG Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
July 13, 2012

DoD IG Report No. DODIG-2012-087, “Logistics Modernization Program System
Procure-to-Pay Process Did Not Correct Material Weaknesses,” May 29, 2012

DoD IG Report No. DODIG-2012-066, “General Fund Enterprise Business System Did
Not Provide Required Financial Information,” March 26, 2012

DoD IG Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in
the General Fund Enterprise Business System Program,” June 15, 2011

DoD IG Report No. D-2009-084, “Controls Over Army Working Capital Fund Real
Property Assets,” May 29, 2009

DoD IG Report No. D-2008-072, “Controls Over Army Real Property Financial
Reporting,” March 28, 2008




                                          33

Army
AAA Attestation Report A-2012-0153-FMR, “Examination of the General Fund
Enterprise Business System - Federal Financial Management Improvement Act
Compliance. Examination of Requirements Through Test Event 1.4.4,” August 7, 2012

AAA Attestation Report A-2010-0187-FFM, “General Fund Enterprise Business System
- Federal Financial Management Improvement Act Compliance. Examination of
Requirements Through Test Event 1.4.0,” September 14, 2010

AAA Audit Report A-2009-0232-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance. Examination of Releases
1.4.1, 1.4.2, 1.4.3, and 1.4.4 Requirements,” September 30, 2009

AAA Audit Report A-2009-0231-FFM, “General Fund Enterprise Business System -
Federal Financial Management Improvement Act Compliance. Examination of Releases
1.3 Functionality,” September 30, 2009

AAA Attestation Report A-2009-0226-FFM, “Examination of Federal Financial
Management Improvement Act Compliance - Test Validation. General Fund Enterprise
Business System Release 1.2,” September 30, 2009

AAA Attestation Report A-2008-0263-FFM, “General Fund Enterprise Business System
- Federal Financial Management Improvement Act Compliance. Examination of Release
1.3 Requirements,” September 29, 2008

AAA Attestation Report A-2008-0204-FFM, “General Fund Enterprise Business System
- Federal Financial Management Improvement Act Compliance. Examination of Release
1.2 Business Process Designs,” August 14, 2008




                                        34

Department of the Army Comments






                 Click to add JPEG file




                        35
Department of the Army Comments






                 Click to add JPEG file




                            36
Department of the Army Comments






                 Click to add JPEG file




                          37
Department of the Army Comments






                 Click to add JPEG file




                         38
Department of the Army Comments






                 Click to add JPEG file




                          39
Department of the Army Comments






                 Click to add JPEG file




                           40
Department of the Army Comments






                 Click to add JPEG file




                            41
Department of the Army Comments






                 Click to add JPEG file




                           42
Department of the Army Comments






                 Click to add JPEG file




                           43
Department of the Army Comments






                 Click to add JPEG file




                           44
Department of the Army Comments






                 Click to add JPEG file




                           45
